                                    Office of Inspector General
                                   Corporation for National and
                                            Community Service




           AGREED-UPON PROCEDURES FOR
     CORPORATION FOR NATIONAL AND COMMUNITY
     SERVICE EDUCATION AWARD PROGRAM GRANTS
    AWARDED TO THE RESEARCH FOUNDATION OF THE
            CITY UNIVERSITY OF NEW YORK

                      OIG REPORT 09-11




                                 Prepared by:

                        COTTON & COMPANY LLP
                        635 Slaters Lane, 4th Floor
                        Alexandria, Virginia 22314




This report was issued to Corporation management on June 4, 2009. Under the laws
and regulations governing audit follow-up, the Corporation is to make final
management decisions on the report’s findings and recommendations no later than
December 4, 2009 and complete its corrective actions by June 4, 2010. Consequently,
the reported findings do not necessarily represent the final resolution of the issues
presented.
                         OFFICE OF INSPECTOR GENERAL
                                         June 4, 2009

TO:            Lois Nembhard
               Acting Director, AmeriCorps*State and National

               Margaret Rosenberry
               Director, Office of Grants Management

FROM:          Stuart Axenfeld /s/
               Assistant Inspector General for Audit

SUBJECT:       Report 09-11, Agreed-Upon Procedures for Corporation for National and
               Community Service Education Award Program Grants Awarded to The
               Research Foundation for The City University of New York (RFCUNY)

We contracted with the independent certified public accounting firm of Cotton & Company
LLP (Cotton) to perform agreed-upon procedures in its review of Corporation Education
Award grants awarded to RFCUNY. The contract required Cotton to conduct the
engagement in accordance with generally accepted government auditing standards.

Cotton is responsible for the attached report, dated February 3, 2009, and the conclusions
expressed therein. We do not express opinions on the Consolidated Schedule of Claimed
and Questioned Costs, supporting schedules, and conclusions on the effectiveness of
internal controls; or compliance with laws, regulations, and grant provisions.

Under the Corporation’s audit resolution policy, a final management decision, by the
Corporation, on the findings in this report is due by December 4, 2009. Notice of final action
is due by June 4, 2010.

During the course of the engagement, information came to the attention of the Office of the
Inspector General that caused it to directly perform a separate evaluation, the results of
which will be issued as Report 09-11A.

If you have questions pertaining to this report, please call me at (202) 606-9360 or Jim
Elmore at (202) 606-9354.

Attachment

cc:   Matthew Goldstein, Chancellor of The City University of New York and
        Chairperson of the Board of Directors of RFCUNY
      Jane Ashdown, University Dean for Academic Affairs, The City
        University of New York
      Kristin McSwain, Chief of Program Operations
      William Anderson, Acting Chief Financial Officer
      Rocco Gaudio, Deputy Chief Financial Officer, for GFFM
      Sherry Blue, Audit Resolution Coordinator
      Sam Hadley, Partner, Cotton & Company LLP
                      1201 New York Avenue, NW Suite 830, Washington, DC 20525
                        202-606-9390 Hotline: 800-452-8210 www.cncsoig.gov

                          Senior Corps   AmeriCorps    Learn and Serve America
                                OFFICE OF INSPECTOR GENERAL
                               AGREED-UPON PROCEDURES FOR
                      CORPORATION FOR NATIONAL AND COMMUNITY SERVICE
                       EDUCATION AWARD PROGRAM GRANTS AWARDED TO
                 THE RESEARCH FOUNDATION OF THE CITY UNIVERSITY OF NEW YORK


                                                         CONTENTS


Section                                                                                                                     Page


Executive Summary .......................................................................................................    1

Independent Accountants’ Report on Applying Agreed-Upon Procedures ......................                                    5

Exhibit A: Consolidated Schedule of Claimed and Questioned Costs............................                                 7

Exhibit B: Compliance Results………………………………………………………………..                                                                      8


Appendices

A: The Research Foundation of the City University of New York’s Response to Agreed-
   Upon Procedures Report

B: Corporation’s Response to Agreed-Upon Procedures Report




                                                                i
                                   EXECUTIVE SUMMARY

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), contracted with Cotton & Company LLP to perform agreed-upon procedures
to assist the OIG in grant cost and compliance testing of Corporation-funded Federal
assistance provided to The Research Foundation of the City University of New York
(RFCUNY). The Corporation awarded two Education Award Program grants to RFCUNY
that were categorized as Professional Model grants.

SUMMARY OF RESULTS

As a result of applying our procedures, we questioned education awards of $16,152,414 and
draw downs of $773,254. In general, we questioned the education awards for members
whose eligibility was not established in accordance with grant requirements for criminal
background checks. Draw downs were questioned mostly for fixed fees related to members
whose eligibility we questioned and also for drawing down in excess of fees earned. In
addition, our compliance findings when taken as a whole indicate pervasive problems of
eligibility, timekeeping, and documentation. A questioned cost is an alleged violation of a
provision of law, regulation, contract, grant, cooperative agreement, or other agreement or
document governing the expenditure of funds or a finding that, at the time of testing,
includes costs not supported by adequate documentation. Detailed results of our agreed-
upon procedures on claimed costs are presented in Exhibit A.

Participants who successfully complete terms of service under AmeriCorps grants are
eligible for education awards and, in some cases, accrued interest awards funded by the
Corporation’s National Service Trust. These award amounts are not funded by Corporation
grants and thus are not included in claimed grant costs. But at the time that a grant is
awarded, and due to the grant award, these amounts become immediate obligations of the
National Service Trust. Therefore, as part of our agreed-upon procedures, and using the
same criteria used for the grantee’s claimed costs, we determined the effect of our findings
on AmeriCorps members’ entitlement to education and accrued interest awards.

The following is a summary of grant compliance testing results. These results, along with
applicable recommendations, are discussed in Exhibit B.

1.     RFCUNY drew down more funds than it was due.

2.     RFCUNY did not follow certain AmeriCorps Provisions.

3.     The supervisory signature on members’ timesheets was not the members’
       supervisor, or that of someone with direct knowledge of hours served by the
       members.

4.     Members did not always record actual service hours on their timesheets.

5.     Some members’ timesheet hours were not accurately recorded in the Corporation’s
       Web-Based Reporting System.

6.     RFCUNY did not require its members to timely submit their member contracts, forms,
       and timesheets.


                                             1
7.      RFCUNY used preprinted member documentation and did not ensure that all
        member documentation was completed, signed, and dated.

8.      RFCUNY did not maintain documentation to demonstrate that each member’s
        evaluation complied with AmeriCorps Regulations and the Member Agreement.

9.      RFCUNY did not maintain documentation to demonstrate that members received
        criminal background checks and that any background checks conducted complied
        with AmeriCorps Provisions.

10.     RFCUNY entered incorrect member start dates in Corporation systems and in
        member contracts.

11.     Some members worked beyond their contract-end date.

AGREED-UPON PROCEDURES SCOPE

We performed the agreed-upon procedures detailed in the OIG’s Agreed-Upon Procedures
(AUP) Program for Corporation Education Awards Program Grants to Grantees (including
Subgrantees or Sites), dated September 2008, and supplemented on December 1, 2008.
Our procedures covered testing of the following grants:

                                                                                  Amount
                                                                                  Awarded
       Award                             Award        Total         AUP          During AUP
      Number           Award             Period       Award        Period          Period
                   New York City
                                       09/01/04-                  09/01/06-
 04EDHNY003       Teaching Fellows                  $2,408,000                    $804,000
                                       04/01/08                   04/01/08
                      Program
                   New York City
                                       08/01/07-                  08/01/07-
 07EDHNY002       Teaching Fellows                  $1,800,000                    $900,000
                                       07/31/10                   07/31/08
                      Program

The OIG’s agreed-upon procedures program included:

              Obtaining an understanding of RFCUNY.

              Verifying that the amount of funds the grantee drew down agrees with the
               amount due.

              Testing grantee member files to verify that records supported eligibility to
               serve and education awards.

              Testing compliance of RFCUNY on selected AmeriCorps Provisions, and
               award terms and conditions.

We performed testing of the Education Award Program (EAP) at RFCUNY from October
2008 through January 2009.



                                               2
BACKGROUND

The Corporation

The Corporation supports a range of national and community service programs that provide
an opportunity for individuals (members) to serve full- or part-time. The Corporation funds
opportunities for Americans to engage in service that fosters civic responsibility and
strengthens communities. It also provides educational opportunities for those who have
made a substantial commitment to service.

The Corporation has three major service initiatives: National Senior Service Corps,
AmeriCorps, and Service-Learning (Learn and Serve America). The AmeriCorps Program,
the largest of the initiatives, is funded in two ways: grants through the State Commissions,
and direct funding to applicants, including funding under the National Direct Program. The
Corporation distributes most of the balance of its funding directly to multi-State and national
organizations such as RFCUNY through a competitive grant process. Unlike the majority of
AmeriCorps grants, EAP grantees, such as RFCUNY, receive only a fixed fee for each
member that they enroll. Most other types of AmeriCorps grants fund member living
allowances and other benefits.


The Research Foundation of The City University of New York

RFCUNY is a non-profit educational corporation located in New York, NY, that manages
private and government-sponsored programs at The City University of New York (CUNY).
RFCUNY supports CUNY faculty and staff in identifying and obtaining awards for programs
from government and private sponsors, and is responsible for the post-award administration
of all such funded programs. While RFCUNY is the grantee, and is ultimately responsible
for the management of the awards, the financial and programmatic components of the
award are performed by both RFCUNY and CUNY. RFCUNY operates its AmeriCorps grant
through the New York City (NYC) Department of Education’s (DOE) Teaching Fellows
Program (Fellows). RFCUNY performs draw downs while CUNY operates the program and
ensures compliance with award requirements. The Fellows program office within DOE
assists CUNY in the operation of the AmeriCorps portion of the program.

The RFCUNY AmeriCorps Program uses a Professional Corps program model.
Professional Corps programs place members as teachers, health care providers, police
officers, childhood development staff, engineers, or other professionals to meet unmet
needs in communities with an inadequate number of such professionals. Grantees receive
Corporation funding to support program costs, and use their own or other resources to pay
the members’ living allowance and additional member costs. Unlike other AmeriCorps
models, the Professional Corps model has no cap on how much a member may earn while
serving.

EXIT CONFERENCE

The contents of this report were discussed with representatives from RFCUNY, DOE, and
the Corporation on January 28, 2009. We have summarized RFCUNY’s comments in the
appropriate sections of this report and have included its complete comments in Appendix A.



                                               3
The Corporation’s response, in Appendix B, noted that it is not commenting on the findings
at this time.

OTHER MATTERS

As part of our procedures, we were required to interview 10 members and 10 supervisors.
Despite several attempts to conduct the interviews, only six members and five supervisors
responded to our repeated requests for interview via telephone. Comments from members
and supervisors are included, where applicable in this report. Had we been able to conduct
all interviews, additional information could have been provided that might have impacted this
report (see Compliance Finding No. 3 for related recommendation).




                                             4
February 3, 2009


Office of Inspector General
Corporation for National and Community Service

                            INDEPENDENT ACCOUNTANTS’ REPORT ON
                             APPLYING AGREED-UPON PROCEDURES

Cotton & Company LLP performed the procedures detailed in the OIG’s Agreed-Upon
Procedures (AUP) Program for Corporation Education Awards Program Grants to Grantees
(including Subgrantees or Sites), dated September 2008, and supplemented on
December 1, 2008. These procedures were agreed to by the OIG, solely to assist it in grant
cost and compliance testing of Corporation-funded Federal assistance, provided to
RFCUNY, for the awards detailed below.

This agreed-upon procedures engagement was performed in accordance with standards
established by the American Institute of Certified Public Accountants (AICPA) and generally
accepted government auditing standards. The sufficiency of these procedures is solely the
responsibility of the OIG. Consequently, we make no representation regarding the
sufficiency of the procedures, either for the purpose for which this report has been
requested or any other purpose.

Our procedures covered testing of the following awards:

                                                                              Amount
                                                                              Awarded
     Award                             Award        Total         AUP        During AUP
    Number              Award          Period       Award        Period        Period
                    New York City
                                      09/01/04-                 09/01/06-
 04EDHNY003        Teaching Fellows               $2,408,000                   $804,000
                                      04/01/08                  04/01/08
                       Program
                    New York City
                                      08/01/07-                 08/01/07-
 07EDHNY002        Teaching Fellows               $1,800,000                   $900,000
                                      07/31/10                  07/31/08
                       Program




                                             5
We also tested certain grant compliance requirements by sampling 311 members. We
performed all applicable testing procedures in the AUP Program for each sampled member.

                                                           Sampled
                      Program Year     Total Members
                                                           Members
                       2006-2007           2,543             127
                       2007-2008           3,674               184


RESULTS OF AGREED-UPON PROCEDURES

We questioned draw downs of $773,254. A questioned cost is an alleged violation of a
provision of law, regulation, contract, grant, cooperative agreement, or other agreement or
document governing the expenditure of funds or a finding that, at the time of testing,
includes costs not supported by adequate documentation.

We also questioned Education Awards of $16,152,414. Grant participants who successfully
complete terms of service under AmeriCorps grants are eligible for education awards and
repayment of student loan interest accrued during the term of service from the National
Service Trust. These award amounts are not funded by Corporation grants and thus are not
included in claimed grant costs. But at the time that a grant is awarded, and due to the
grant award, these amounts become immediate obligations of the National Service Trust.
Education awards totaling $11,340,000 in Program Year (PY) 2006-2007 and $17,010,000
in PY 2007-2008 were available to CUNY for award to potential members. As part of our
agreed-upon procedures and using the same criteria as claimed costs, we determined the
effect of our findings on AmeriCorps members’ entitlement to education and accrued interest
awards.

Detailed results of testing grant compliance are summarized in Exhibit B. We were not
engaged to, and did not perform an examination, the objective of which would be expression
of an opinion on the subject matter. Accordingly, we do not express such an opinion. Had
we performed other procedures, other matters might have come to our attention that would
have been reported.

This report is intended solely for the information and use of the OIG, the Corporation, The
Research Foundation of The City University of New York, and the U.S. Congress and is not
intended to be and should not be used by anyone other than these specified parties.

COTTON & COMPANY LLP




Sam Hadley, CPA, CGFM
Partner




                                              6
                                                                                   EXHIBIT A


            THE RESEARCH FOUNDATION OF THE CITY UNIVERSITY OF NEW YORK
             CORPORATION FOR NATIONAL AND COMMUNITY SERVICE AWARDS
             CONSOLIDATED SCHEDULE OF CLAIMED AND QUESTIONED COSTS


                                                                       Education
                                       Fixed Awards                     Awards
             Award No.      Awarded      Claimed      Questioned      Questioned
            04EDHNY003 $2,408,000      $2,408,000      $104,042        $715,839
                                                                 1
            07EDHNY002 $1,800,000        $669,212     $669,212       $15,436,575
                          $4,208,000   $3,077,212      $773,254      $16,152,414


RFCUNY drew down more funds than it was due for Award No. 04EDHNY003. The
resulting questioned costs of $43,732 are further discussed in Compliance Finding No. 1.
In addition, RFCUNY did not maintain documentation to demonstrate that members had
undergone criminal background checks or that the background check for each member
complied with AmeriCorps regulations. The resulting questioned costs of $729,522 and
questioned education awards of $16,152,414 are further discussed in Compliance Finding
No. 9.




1
 RFCUNY had drawn down this amount, as of September 2008. Had RFCUNY drawn down the
entire PY 2007-2008 award of $900,000, the entire award would have been questioned.

                                            7
                                                                                     EXHIBIT B


                 THE RESEARCH FOUNDATION OF THE CITY UNIVERSITY OF NEW YORK
                                   COMPLIANCE RESULTS

The results of our agreed upon procedures identified the following compliance findings:

Finding 1.        RFCUNY drew down more funds than it was due.

As discussed in Exhibit A, RFCUNY drew down excess fees of $43,732 on Award No.
04EDHNY003. RFCUNY performed the draw downs based on actual expenses recorded
on its books instead of the actual number of members enrolled in the AmeriCorps program.

AmeriCorps Education Award Program Grant Provisions (2005-2006), Section V.K. Fixed
Amount Award, states:

         Education Award Program Awards are for fixed amounts and are not subject
         to the Federal Cost Principles. The fixed amount is based on the approved
         number of members and is funded at the amount per full-time equivalent
         member specified in the awards. This award is dependent upon the
         grantee’s performance under the terms and conditions of the award. These
         include properly enrolling the number of members as specified in the award
         to carry out the activities and to achieve the specific project objectives as
         approved by the Corporation. Failure to enroll the number of members
         approved in the grant award may result in the reduction of the amount of the
         grant.

As detailed below, we calculated $43,732 of questioned draw downs.

                                 (B)            (C)
                     (A)*        Full         Fixed       (A x B x C)   Amount      Excess
      Program     Members       Time         Amount        Allowable     Drawn      Amount
                                                      2
        Year      Enrolled    Equivalent   Per Member       Amount       Down        Drawn
     2004-2005    2,692 FT       1.0         $296.30       $797,640     $800,000     $2,360
     2005-2006     2,186 FT      1.0         $335.00      $732,310
                     292 HT      0.5         $335.00        48,910
                                                          $781,220      $804,000     $22,780

     2006-2007     2,146 FT      1.0         $335.00      $718,910
                     397 HT      0.5         $335.00        66,498
                                                          $785,408      $804,000    $18,592
    * FT = Full Time; HT = Half Time




2
 Fixed amount per member was calculated by dividing the grant award amount by the number of
available member slots in that year ($800,000/2,700 in Program Year (PY) 2004-2005 and
$804,000/2,400 in PY 2005-2006 and PY 2006-2007).

                                                 8
Recommendations:

We recommend that the Corporation:

       1a.     Require RFCUNY to strengthen procedures to ensure that it complies with
               AmeriCorps Fixed Amount Award requirements;

       1b.     Verify implementation of strengthened draw down procedures; and

       1c.     Recover the excess fees drawn down.

RFCUNY’s Response:

       1a.     RFCUNY believes that the amount drawn down and its draw down process,
               were reasonable given its program design, which provide for making draw
               downs based on expenses.

       1b.     RFCUNY will await a decision by the Corporation before making any changes
               in its existing draw down procedures.

       1c.     If the Corporation decides against the RFCUNY draw down position, the
               funds in question will be returned.

Accountants’ Comments: RFCUNY did not return the excess funds, develop revised
procedures, or provide criteria supporting its position. The grant does not reimburse for
expenses, and is a fixed-rate grant. Therefore, its comments are not responsive to the
recommendations.


Finding 2. RFCUNY did not follow certain AmeriCorps Provisions.

RFCUNY did not follow AmeriCorps Provisions related to member timesheets, orientation
training, training limitations, and fundraising limitations, as follows:

Member Timesheets

None of the sampled member timesheets reviewed, for PY 2006-2007 and PY 2007-2008,
were dated, as required by AmeriCorps provisions. AmeriCorps Education Awards Program
Special Provisions (2005-2006), Section IV.C.2. AmeriCorps Members, requires that
grantees keep time-and-attendance records for all AmeriCorps members to document their
eligibility for in-service and post-service benefits. Timesheets must be signed and dated
both by the member and by an individual with oversight responsibilities for the member.
RFCUNY representatives were not aware that AmeriCorps provisions required members to
date timesheets themselves but were aware of the need for a dated timesheet. As a result,
member timesheets RFCUNY provided did not contain a space for the date. Without dated
timesheets, the potential exists for members to complete the member timesheets before
performing the required service hours. In addition, the grantee and the Corporation cannot
use their automated systems to track actual service times and dates.




                                              9
Orientation Training

RFCUNY did not provide documentation to demonstrate that members in either program
year received AmeriCorps Program orientation before starting service. AmeriCorps
Education Award Program Special Provisions (2005-2006), Section IV.E.3. Training,
Supervision, and Support, states that grantees must conduct an orientation for members
and comply with any pre-service orientation or training required by the Corporation. In
addition, grantees are required to provide members with training, skills, knowledge, and
supervision necessary to perform tasks required in their assigned project positions, including
specific training in a particular field and background information on the community served.
RFCUNY representatives stated that it conducted its orientation sessions during its eight-
week training program held prior to the start of members’ service, but did not have the sign-
in sheet available. However, three of six members interviewed stated they did not recall
attending an AmeriCorps Program orientation. Without proper orientation, members may
not be knowledgeable on how to properly fulfill program requirements.

Training Limitations

RFCUNY did not have procedures to ensure that no more than 20 percent of the aggregate
of all AmeriCorps member service hours in each program year were spent on training and
education activities. According to 45 Code of Federal Regulations (CFR) § 2520.50, How
much time may AmeriCorps members in my program spend in education and training
activities?, no more than 20 percent of the aggregate of all AmeriCorps member service
hours may be spent in education and training activities. RFCUNY representatives were
unaware of the requirement and were not sure how to demonstrate their compliance with
this requirement. Without tracking member-training hours, members may exceed the
maximum allowable hours permitted for training.

Fundraising Limitations

RFCUNY did not have procedures to ensure that no more than 10 percent of member
service hours were spent on fundraising activities. According to 45 CFR § 2520.45, How
much time may an AmeriCorps member spend fundraising?, an AmeriCorps member may
spend no more than ten percent of their service performing fundraising activities. RFCUNY
representatives stated that they did not have a procedure in place to monitor fundraising
hours because members did not perform fundraising activities at school and because
members spend a significant amount of time outside of the classroom creating lesson plans
and attending graduate school. Two of the six members interviewed stated that they
participated in fundraising activities. One member stated he sent forms home for a few of
his students who participated in a candy sale. Another member stated that she participated
in fundraising while she was an AmeriCorps member, but only during weekends. Without
procedures for tracking member fundraising hours, members may exceed the maximum
allowable hours permitted for performing fundraising activities.

Recommendations:

We recommend that the Corporation:



                                             10
       2a.    Provide guidance to RFCUNY on proper timekeeping procedures to ensure it
              complies with AmeriCorps requirements;

       2b.    Provide guidance to RFCUNY on procedures to ensure that its program
              conducts, maintains, and retains documentation to support member
              attendance at orientation;

       2c.    Require RFCUNY to implement procedures to track member training and
              fundraising to ensure members do not exceed the maximum percentage of
              hours allowed for those activities; and

       2d.    Verify RFCUNY’s implementation of compliant timekeeping, orientation,
              training, and fundraising procedures.

RFCUNY’s Response:

       2a.    RFCUNY has amended its member timesheets. The amended timesheets
              include a space marked ‘Date’ where members must date timesheets.

       2b.    RFCUNY provided prospective members with an orientation packet at the
              beginning of their service in the summer. The packet included a Handbook
              that provides answers to frequently asked questions about AmeriCorps
              Education Awards and AmeriCorps procedures. In the future, RFCUNY will
              obtain signatures from participants to document their attendance at
              AmeriCorps orientation.

       2c.    RFCUNY does not believe that members could spend excessive time on
              fundraising activities due to their existing workload. However, it will inform
              members (starting with the amended timesheet in the next program year) that
              they should not include fundraising in their service hours. The amended
              AmeriCorps member handbook and timesheets will note that fundraising is
              prohibited. The amended timesheet will also reflect the prohibition on indirect
              service beyond 20 percent of service hours. This will be emphasized in the
              AmeriCorps orientations.

       2d.    RFCUNY’s amended timesheets and AmeriCorps orientation sign-in lists will
              be available for the Corporation to review upon request.


Accountants’ Comments: The Corporation requires its grantees to track all member
service hours and to differentiate hours for fundraising and training. It is the grantee’s
choice to subject each member to the 20-percent-training limitation, but the AmeriCorps
requirement is apply the limitation to the aggregate of all members’ time. Additionally,
RFCUNY did not address how it will monitor the indirect service hour limit. Simply noting the
limitation on the timesheet will not ensure that limits are not exceeded.




                                             11
Finding 3.     The supervisory signature on members’ timesheets was not the
               members’ supervisor, or that of someone with direct knowledge of
               hours served by the members.

The Program Manager and staff for RFCUNY signed member timesheets for all sampled
members in both program years. However, the Program Manager and staff do not have
first-hand knowledge of member activities. Members record both direct and indirect service
hours on timesheets. Direct hours include teaching hours, lesson planning, grading papers,
faculty meetings, and parent conferences. Members also earn direct service hours for
participating in extracurricular activities, such as coaching. Indirect hours include time to
attend graduate courses and homework, professional development days/workshops, and
training. Because of these varied types of activities that CUNY allows as service hours, a
member may need an alternative to having a single “supervisor” verify each type of time
served.

AmeriCorps Education Awards Program Special Provisions (2005-2006), Section IV.C.2.
AmeriCorps Members, requires that grantees keep time-and-attendance records for all
AmeriCorps members to document their eligibility for in-service and post-service benefits.
Time and attendance records must be signed and dated both by the member and by an
individual with oversight responsibilities for the member.

Without procedures to verify member activities or timesheet accuracy, the potential exists for
members to perform prohibited activities, report incorrect hours, and receive education
awards to which they are not entitled.

As stated on page 4 under the caption, Other Matters, we were unable to contact and
interview four of ten members and five of ten supervisors we had selected for interviews.
We are concerned that these members did not return our phone calls, even after RFCUNY
had assisted us in attempting to contact them.


Recommendations:

We recommend that the Corporation:

       3a.     Provide guidance to RFCUNY on proper member timekeeping procedures to
               ensure that it complies with AmeriCorps requirements; and

       3b.     Verify RFCUNY’s implementation of the revised timekeeping procedures that
               ensure timesheets are signed by a supervisor having direct knowledge of the
               members’ activities.

       3c.     Verify the existence of the members who did not respond to our repeated
               requests to interview them.




                                             12
RFCUNY’s Response:

       3a.     RFCUNY will seek relief from duplicative timekeeping requirements by
               requesting that its program be granted permission to use an alternative
               system.

       3b.     RFCUNY stated that, “amended timesheets will be available upon request”.

       3c.     RFCUNY noted that all members selected for interviews are shown as
               “active” in the DOE database.


Accountants’ Comments: RFCUNY noted that it will seek approval of an alternative
timekeeping system. We have no objections to an alternative timekeeping system however,
we note that the school’s system is unlikely to capture anything other than actual hours
worked in the school and would not include graduate classroom effort and extracurricular
activities. Finally, RFCUNY did not provide any further documentation from members that
would not respond to our interview requests to verify existence of those members.


Finding 4. Members did not always record actual service hours on their timesheets.

RFCUNY provided members with preprinted sample timesheets showing the total number of
hours by week and by month that an average member could complete over the course of
the service term (ten months for full time members and five months for part-time members).
Fifty of 127 sampled members in PY 2006-2007, and 59 of the 184 sampled members in PY
2007-2008 reported hours identical to those provided on the sample timesheets. Further,
the sample timesheets included mathematical errors, which were also copied by members to
their timesheets.

RFCUNY representatives believed that the preprinted samples they were providing were
only an example for members to use as a guide. However, members were copying the
preprinted information regardless of their activity. For instance, one member used the
preprinted information to report service hours; however, his onsite supervisor noted that the
member had been absent several days during the school year.

Recommendations:

We recommend that the Corporation:

       4a.     Require RFCUNY to either remove the sample template timesheet or provide
               members with proper guidance concerning completing timesheets accurately;
               and

       4b.     Verify RFCUNY’s implementation of revised timesheet procedures to ensure
               that member timesheets contain actual hours served.




                                             13
RFCUNY’s Response:

       4a.    Going forward from the May 2009 timesheet, the sample of recorded hours
              has been removed. We will also communicate with our members to reinforce
              the need to complete timesheets carefully and accurately.

       4b.    The revised timesheets and orientation agenda will be made available to the
              Corporation upon request.


Accountants’ Comments: RFCUNY’s actions are responsive to the recommendations.


Finding 5. Some members’ timesheet hours were not accurately recorded in the
           Corporation’s Web-Based Reporting System.

Timesheet hours for some members were not accurately recorded in the Web-Based
Reporting System (WBRS). Timesheets did not support hours recorded in WBRS for 10 of
127 sampled members in PY 2006-2007 and 12 of 184 sampled members in PY 2007-2008.
The hours on timesheets for two PY 2006-2007 members did not support WBRS hours used
to calculate their partial education awards (the partial education awards were due to
compelling personal circumstances).

RFCUNY representatives stated that the differences were due to mathematical errors.
AmeriCorps has chosen to avoid requiring specific timesheet procedures that may not be
applicable to every program. It is, however, good business practice to check the accuracy
of hours recorded on timesheets. Without procedures to verify member activities or
timesheet accuracy, the potential exists for members to perform prohibited activities or
receive education awards to which they are not entitled.

Recommendations:

We recommend that the Corporation:

       5a.    Ensure RFCUNY strengthens internal controls over timesheet review and
              reporting hours to the Corporation; and

       5b.    Verify implementation of timekeeping procedures to strengthen internal
              controls to ensure that hours reported to the Corporation are accurate.

RFCUNY’s Response:

       5a.    Beginning with May 2009 timesheets, office personnel of the NYC Teaching
              Fellows program will review all timesheets entered into WBRS. RFCUNY
              staff members will also conduct random tests of timesheets and hours
              recorded to validate entries into WBRS.

       5b.    The Corporation may review the new timesheet procedures as desired.




                                            14
Accountants’ Comments: RFCUNY’s actions are responsive to the recommendations.
The Corporation should review the revised timekeeping processes and procedures.


Finding 6. RFCUNY did not require its members to timely submit their member
           contracts, forms, and timesheets.

Member Contracts and Forms

We reviewed member contracts, enrollment forms, change of status forms, and exit forms
for sampled members. Members did not sign member contracts and enrollment forms, and
RFCUNY did not enter member enrollment, change of status, and exit forms into WBRS
within 30 days after the members started or ended their service. This chart indicates that
members were submitting required information, in some instances, long after the 303-day
service period had been completed.

The number of late instances for each situation are noted below:

                                                 PY             PY
                      Form                    2006-2007      2007-2008      Days Late
      Enrollment Form (Approved in WBRS)           30            136         32-369
      Enrollment Form (Signed by Member)           30            104         32-369
      Change of Status (Approved in WBRS)           4              0        138-513
      Exit From (Approved in WBRS)                 72            127         31-159
      Contract (Signed by Member)                  31            104         32-369
      Total                                       167              471


AmeriCorps Education Awards Program Special Provisions (2005-2006) Section IV.C.1.a.i.
Member Enrollment Procedures, states that an individual is enrolled as an AmeriCorps
member when he or she has signed a member contract. Further, AmeriCorps Education
Award Program Special Provisions (2005-2006), Section IV.F.2. Notice to the Corporation’s
National Service Trust, states that the grantee must notify the Corporation’s National Service
Trust within 30 days upon entering into a commitment with an individual to serve; a
member’s enrollment in WBRS; and completion of, lengthy or indefinite suspension from, or
release from, a term of service.

RFCUNY representatives stated that they have a large program with over 3,000 members
and 30 days is often an insufficient or unrealistic time frame for a program of their size.
Without timely completion and submission of member contracts and enrollment, exit, and
change of status forms, the Corporation cannot maintain accurate member records.

Member Status

As of November 2008, nine PY 2007-2008 sampled members were still classified as “Active”
in WBRS; even though the PY 2007-2008 program year ended at the close of the school
year in June 2008. RFCUNY representatives stated that these members were still “Active”
because the members had not turned in all of their timesheets and exit forms. RFCUNY
gives members approximately three months after the end of the program year to turn in
timesheets. RFCUNY did not have any written policies and procedures concerning this
practice.

                                             15
AmeriCorps Education Awards Program Special Provisions (2005-2006), Section IV.O.3.c.
Exit/End-of-Term-of-Service Forms, stipulates that Member Exit/End-of-Term-of-Service
Forms must be submitted no later than 30 days after a member exits the program or finishes
his/her term of service.

Eligibility

RFCUNY required members to complete, sign, and date a “Member Eligibility Verification
Form.” On these forms, members marked the type of documentation that they were
providing to support citizenship or legal resident status. The forms for 31 of 127 sampled
members in PY 2006-2007 and 115 of 184 sampled members in PY 2007-2008 were dated
after the members’ start dates. The range of days it took citizenship to be verified was 5-97
days in PY 2006-2007 and 2-369 days in PY 2007-2008.

According to 45 CFR § 2522.200, What are the eligibility requirements for an AmeriCorps
participant?, every AmeriCorps participant is required to be a citizen, national, or lawful
permanent resident alien of the United States. Further, AmeriCorps Education Award
Program Special Provisions (2005-2006) IV.C.1.a.ii. Member Enrollment Procedures, states
that an individual is enrolled as an AmeriCorps member when the program has verified the
member’s eligibility to serve.

Recommendations:

We recommend that the Corporation:

        6a.    Provide guidance to RFCUNY on proper completion of member enrollment,
               exit, and change of status forms. Such training must be sufficient to ensure
               actions with regard to such forms be taken within 30 days;

        6b.    Verify that member forms at RFCUNY are properly completed and submitted
               in accordance with grant requirements;

        6c.    Require RFCUNY to strengthen its member contract procedures to ensure
               that member contracts are signed prior to the start of service; and

        6d.    Verify that member contracts are signed prior to the start of service
               subsequent to RFCUNY implementing a revised program.

RFCUNY’s Response:

        6a.    RFCUNY will work with the Corporation on developing the appropriate
               training to ensure completion of member forms in a timely manner.

        6b.    RFCUNY will improve its procedures to ensure prompt and timely member
               submission of contracts, forms, and timesheets. Members will not be allowed
               to sign contracts after the start date of their service, and any late materials
               could lead to the loss of their education awards.




                                              16
       6c.    The AmeriCorps calendar, previously part of the member handbook, has now
              been separated and distributed with the timesheets. In addition, the cover
              letters for its enrollment materials, time sheets, and exit materials stress the
              need to meet all deadlines. This information will also be emphasized at
              future AmeriCorps orientations.

       6d.    The AmeriCorps handbook is available upon request for verification
              purposes.


Accountants’ Comments: RFCUNY ’s actions appear responsive to the
recommendations; however, the Corporation needs to obtain and review documentation to
determine if appropriate training was developed, and verify that all necessary steps are
taken by RFCUNY to ensure that information is entered and updated in a timely manner.


Finding 7. RFCUNY used preprinted member documentation and did not ensure that
           all member documentation was completed, signed, and dated.

Standard Documentation

As detailed below, RFCUNY used standard documentation with preprinted signatures.

             The RFCUNY Program Manager did not sign or complete Part 2 of the
              AmeriCorps Exit Form for members. Part 2 of the Exit Form documents the
              member’s completion of the program, number of hours served, and the
              member’s eligibility for an education award. Instead of completing each Exit
              Form, RFCUNY Program Manager or Program Assistant attached a
              photocopy of Part 2 of the member Exit Form, which reported total service
              hours of 1700 regardless of actual service hours for the member. The form
              also included the Program Manager’s signature and date, which certifies that
              the member successfully completed service.

             The RFCUNY Program Manager did not sign the Member Agreements for all
              members sampled in both program years. Instead, RFCUNY attached a
              photocopy of the Program Manager’s signature and date to each Member
              Agreement.

The RFCUNY representatives stated that the size of their program and the tight deadlines
preclude them from completing forms for each member. Without member specific data on
original forms, RFCUNY cannot maintain accurate member records, increasing the
possibility that inaccurate information may be entered into WBRS, or that members may
receive awards to which they are not entitled.

Member Eligibility Documentation

             Twelve of 127 sampled members in PY 2006-2007 did not complete the self-
              certification at the bottom of the enrollment form. While these members did
              not self-certify that they had met the high school education requirement, the



                                             17
              members indicated elsewhere on the enrollment form that they had
              completed at least a high school education.

              AmeriCorps Education Award Program Special Provisions (2005-2006)
              Section IV.M.2. Verification, states that to verify that a member meets the
              requirement relating to high-school education, the grantee must obtain from
              the member, and maintain in the member’s file, a written declaration under
              penalty of law that the member meets the provision requirement relating to
              high-school education.

             Three of 184 sampled members in PY 2007-2008 did not complete and sign
              “Member Eligibility Verification Forms” and four of 184 sampled members in
              PY 2007-2008 did not date their Member Eligibility Verification forms. The
              education awards for these members were not questioned because
              documentation to support citizenship or legal resident status was provided for
              these members.

              According to 45 CFR § 2522.200, What are the eligibility requirements for an
              AmeriCorps participant?, every AmeriCorps participant is required to be a
              citizen, national, or lawful permanent resident alien of the United States.
              Further, AmeriCorps Education Award Program Special Provisions (2005-
              2006) IV.C.1.a.ii. Member Enrollment Procedures, states that an individual is
              enrolled as an AmeriCorps member when the program has verified the
              individual’s eligibility to serve.

RFCUNY did not require members to date all documentation submitted to RFCUNY or
resubmit incomplete documents or documents with missing signatures. AmeriCorps
requirements do not specifically address procedures for preparing member forms. It is,
however, good business practice to sign, date, and complete forms.

Recommendations:

We recommend that the Corporation:

       7a.    Require RFCUNY to discontinue the use of preprinted signatures and service
              hours on AmeriCorps documentation, including Exit Forms;

       7b.    Require RFCUNY to strengthen eligibility procedures; and

       7c.    Verify that the use of preprinted signatures and service hours has been
              discontinued on Exit Forms and that eligibility procedures are strengthened.

RFCUNY’s Response:

       7a.    Beginning with its mid-year Teaching Fellows cohort, RFCUNY has
              discontinued the use of preprinted signatures, and service hours on
              AmeriCorps documentation, including Exit Forms.

       7b.    RFCUNY is confident that all Teaching Fellows meet the high school
              education requirement for eligibility because the Teaching Fellows program


                                            18
              and the New York State Department of Education require that every Teaching
              Fellow have a Bachelor’s degree prior to entry into the program and to submit
              transcripts as part of the application process. At the orientation for
              prospective members, RFCUNY will emphasize the necessity of completing
              this part of the application form or risk becoming ineligible for the education
              award.

       7c.    As indicated above, RFCUNY has discontinued the use of pre-printed
              signatures and service hours on AmeriCorps documentation, including exit
              forms.


Accountants’ Comments: RFCUNY’s actions are responsive to the recommendations.


Finding 8.    RFCUNY did not maintain documentation to demonstrate that each
              member’s evaluation complied with AmeriCorps Regulations and the
              Member Agreement.

RFCUNY did not have member evaluations for any of its members that complied with its PY
2006-2007 and PY 2007-2008 Member Agreements and Corporation regulations. RFCUNY
stated it currently evaluates its members in two areas:

             Members receive ratings from their school administrators. This information is
              fed to DOE. If a member receives an unsatisfactory rating, DOE notifies
              RFCUNY, which then terminates the member.

             Members must maintain a grade point average of 3.0 to remain in the
              program. If the member’s grade point average falls below 3.0, the CUNY
              campuses notify RFCUNY and the member is terminated.

RFCUNY did not participate in the evaluation process and did not have procedures in place
to ensure that the process was operating properly. Instead, RFCUNY received evaluation
feedback from the DOE only when a member was not performing satisfactorily.

Section III. of the RFCUNY Member Agreement states the following:

       The Member understands in order to be eligible for serving a second term of
       service, the Member must receive satisfactory performance reviews for any
       previous term of service. The Member’s eligibility for a second term of
       service with this program will be based at least on the end-of-term evaluation
       of the Member’s performance focusing on factors such as whether the
       Member has:

                     Completed the required number of hours;

                     Completed assignments, tasks or projects in a satisfactory manner;
                      and




                                             19
                     Completed any other assignments that were clearly communicated
                      both orally and in writing at the beginning of the term of service.

Grantees must comply with their Member Agreement requirements for member performance
reviews. While the AmeriCorps requirement for member performance reviews had been
waived for Education Award Programs by the Corporation, the requirement in the CFR is
applicable for PY 2008-2009. As of November 2008, RFCUNY still had not revised its
evaluation procedures, even though PY 2008-2009 started in August 2008.

According to 45 CFR § 2522.220(d), Participant performance review, a participant is not
eligible for a second or additional term of service and/or for an AmeriCorps education award
without mid-term and final evaluations.

The end-of-term performance evaluation will assess the following:

             Whether the participant has completed the required number of hours in order
              to be eligible for the education award;

             Whether the participant has satisfactorily completed assignments, tasks, or
              projects; and

             Whether the participant has met any other performance criteria, which has
              been clearly communicated both orally and in writing at the beginning of the
              term of service.

Recommendations:

We recommend that the Corporation:

       8a.    Require RFCUNY to revise its member evaluation procedures in order to
              comply with the Regulations and member agreement; and

       8b.    Verify the revision of RFCUNY’s procedures for member evaluations.

RFCUNY’s Response:

       8a.    RFCUNY will ensure that it receives verification of the members’ direct
              service evaluations from the NYC DOE and the NYC Teaching Fellows
              program managers. RFCUNY will also receive verification of indirect service
              evaluation from the New York City Teaching Fellows Coordinators at each
              participating Institution of Higher Learning. These evaluations will be placed
              in the member files and appropriate action will be taken if any members
              receive unsatisfactory evaluations.

       8b.    The Corporation may verify these new procedures as desired.


Accountants’ Comments: RFCUNY’s actions are not fully responsive to the
recommendations. Although, RFCUNY provided for alternative evaluations, it has not
described how it actions provide for compliance with 45 CFR § 2522.220(d).


                                             20
Finding 9. RFCUNY did not maintain documentation to demonstrate that members
           received criminal background checks, and that any background checks
           conducted complied with AmeriCorps Provisions.

RFCUNY did not maintain documentation to demonstrate that members had background
checks or that the background check for each member complied with AmeriCorps
regulations.

According to 45 CFR § 2540.205 What documentation must I maintain regarding a National
Service Criminal History Check for a covered position?, grantees must document the
following in writing:

             The identify of the individual in a covered position was verified by examining
              the individual’s government-issued photo identification card;

             Required checks for the covered position were conducted;

             The results of the National Service Criminal History Check were maintained,
              unless precluded by State law; and

             The results were considered in selecting the individual

RFCUNY had no documentation in its program files to support that background checks were
conducted on all members prior to entering school grounds. RFCUNY relied on DOE to
ensure background checks were completed on each member. DOE conducts a background
check on each member at the State and Federal levels and reviews results prior to the start
of the members’ enrollment in the AmeriCorps program. Subsequent to our identification of
this issue, RFCUNY submitted a request to the Corporation for an ‘alternate screening
protocol’ to rely on efforts of DOE; the request was pending as of January 2009.

A stated in 45 CFR § 2540.202 What two search components of the National Service
Criminal History Check must I satisfy to determine an individual’s ability to serve in a
covered position?:

       Unless the Corporation approves an alternative screening protocol, in
       determining an individual’s suitability to serve in a covered position, you
       are responsible for conducting and documenting a National Service Criminal
       History Check, which consists of two search components.

       (a) State criminal registry search. A search (by name or fingerprint) of the
           State criminal registry for the State in which your program operates and
           the State in which the individual resides at the time of the application; and

       (b) National Sex Offender Public Registry. A name-based search of the
           Department of Justice (DOJ) National Sex Offender Public Registry
           (NSOPR) [emphasis added]:.




                                              21
Further, 45 CFR § 2540.203 When must I conduct a State criminal registry check and
NSORP check on an individual in a covered position?, required the State criminal registry
check to be conducted on an individual who enrolled or was hired by the program after
November 23, 2007. The NSOPR check was required to be performed on an individual who
was serving or applied to serve in a covered position on or after November 23, 2007.

Because RFCUNY did not have any written documentation to support that the background
checks were conducted and complied with AmeriCorps regulations, we questioned the
education awards and related fixed fees for those members who were serving on or applied
to serve in a covered position after November 23, 2007. That is, we questioned the costs
for those members whose suitability to serve in a covered position was not established in
accordance with 45 CFR § 2540.202 that we quoted previously.

                                                           Fixed          Education
                                                           Fees            Awards
                                                                                    3
               Award No.         PY         Members      Questioned      Questioned
              04EDHNY003 2006-2007                190      $60,310         $715,839
                                                                    4
              07EDHNY002 2007-2008              3,674    $669,212       $15,436,575
                                                3,864     $729,522      $16,152,414



Recommendations:

We recommend that the Corporation:

        9a.     Determine if RFCUNY’s current background check process is acceptable,
                and if not, provide guidance on procedures that ensure RFCUNY’s programs
                conduct, maintain, and retain documentation to support member background
                checks are in compliance with AmeriCorps Provisions; and

        9b.     Verify implementation of the background check procedures.

        9c.     Disallow and, if already used, recover education awards and accrued interest
                awards made to members with questioned education awards. In addition,
                recover fixed grant fees for any member whose education award was
                disallowed for reasons of eligibility.

RFCUNY’s Response:

        9a.     RFCUNY believes that its current background check policy meets the
                requirements, and further notes that a background check using fingerprints is
                more accurate than a background check using names. However, RFCUNY


3
  Members may also earn accrued interest awards. Information on accrued interest awards was not
available at the conclusion of our fieldwork. If the members’ education award is questioned, accrued
interest awards for those members should also be questioned.
4
  RFCUNY had drawn down this amount, as of September 2008. Had RFCUNY drawn down the
entire PY 2007-2008 award of $900,000, the entire award would have been questioned.

                                                 22
              accepts the Corporation’s decision on this issue.

       9b.    RFCUNY will wait for a decision from the Corporation’s Senior Grants Officer
              for Policy Administration on the background check process it describes in 9a.

       9c.    RFCUNY noted that the Teaching Fellows can only become employed after
              they successfully complete the background check, and can only become
              eligible for the AmeriCorps program after they become a Teaching Fellow.



Accountants’ Comments: RFCUNY’s comments are not responsive to the
recommendations. The Corporation replied directly to RFCUNY, with regard to a request for
a waiver, in a letter dated January 30, 2009, and again on April 29, 2009. Those letters both
state that RFCUNY’s procedures did not meet the Corporation requirements as detailed
above, specifically for a name-based search of the NSOPR. RFCUNY was made aware that
its procedures were not acceptable to the Corporation; however, it has not revised its
procedures to comply with the requirements.


Finding 10. RFCUNY entered incorrect member start dates in Corporation systems
            and in member contracts.

For each program year, all members began on the same date. However, the start date
shown on the member contract, as well as the start date in WBRS, was not the actual date
members started performing service. RFCUNY changed the start date on the member
contract to define groups of members (cohorts) for its internal management purposes.

AmeriCorps Education Awards Program Special Provisions (2005-2006), Section IV.C.1.b.
Member Enrollment Procedures, stipulates that prior to enrolling a member, AmeriCorps
programs are required to sign a member contract with an individual or otherwise enter a
legally enforceable commitment as defined by state law.

Recommendations:

We recommend that the Corporation:

       10a.   Provide guidance to RFCUNY on proper member contract procedures to
              ensure that they comply with AmeriCorps requirements;

       10b.   Require RFCUNY to enter proper dates into WBRS; and

       10c.   Verify implementation of proper member contract procedures and input of
              proper dates into WBRS.

RFCUNY’s Response:

       10a.   RFCUNY will meet with appropriate staff from the Corporation for guidance
              on proper member contract procedures.



                                             23
       10b.    RFCUNY has ceased its practice of modifying start dates to identify different
               teaching groups.

       10c.    With the cessation of identification through dates, RFCUNY is in the process
               of creating a new way of identifying cohorts in WBRS that will be in
               compliance with the regulations. RFCUNY will seek advice from the
               Corporation on how to accomplish this using WBRS.


Accountants’ Comments: RFCUNY’s comments are responsive to the recommendations.


Finding 11.    Some members worked beyond their contract-end date.

Twelve part-time members of the 127 sampled members during PY 2006-2007 completed
service hours beyond the end date specified by the Member Agreement. The member
agreement, as well as the member handbook, listed a completion date of December 31,
2006. However, the member agreement was titled “2006 Fall 5 Month Service Learning”
and members continued service until January 31, 2007.
The hours members worked beyond their end date are, as follows:

                           Total Hours From         Total Hours Beyond         Net Hours
       Member                 Timesheets                  End Date              Earned
           5
         1                        1042                      200                   842
          2                       1182                      250                   932
          3                       1188                      256                   932
          4                       1170                      250                   920
          5                       1170                      250                   920
          6                       1170                      250                   920
          7                       1170                      250                   920
          8                       1171                      250                   921
          9                       1170                      250                   920
         10                       1170                      250                   920
         11                       1170                      250                   920
         12                       1182                      255                   927

If hours worked beyond the service completion date in their contract were disallowed, one
member would not have enough service hours to earn their education award.

Recommendations:

We recommend that the Corporation:

       11a.    Require RFCUNY to amend member contracts to ensure that members do
               not work beyond the specified end date;




5
 Member would not have obtained the required number of service hours if excess hours are
disallowed.

                                               24
      11b.   Determine if excess service hours are eligible, if not, disallow excess hours
             and, if already used, recover education awards to members who did not
             serve the minimum required service hours; and

      11c.   Verify the amendment of the member contract.

RFCUNY’s Response:

      11a.   RFCUNY noted that this issue was due to a typographical error in its member
             contract for the part-time, service-learning program that it no longer operates.

      11b.   Because the date in the contract was simply an error, there were no excess
             hours worked.

      11c.   The auditors noted that the issue related to a misprinted date.


Accountants’ Comments: RFCUNY’s comments are responsive to the recommendations.




                                            25
                        APPENDIX A

THE RESEARCH FOUNDATION OF THE CITY UNIVERSITY OF NEW YORK’S
       RESPONSE TO AGREED-UPON PROCEDURES REPORT
         The City
         University
         of
         New York

The Office of Academic Affairs, 535 East 80th Street, New York, NY 10075




April 30 th , 2009


Mr. Gerald Walpin
Inspector General
Corporation for National and Community service
1201 New York Avenue
Suite 830
Washington, DC 20525


Dear Mr. Walpin:

 Please find enclosed the RFCUNY Response to the Agreed-Upon Procedural Review
prepared by Cotton and Company LLP.

A response to this document was requested by Mr. Stuart Axenfeld from your office in a
                                                              nd
letter addressed to Mr. Eric Newman ofRFCUNY, dated April 2 , 2009.


Very Truly Yours



 ane Ashdown, Ph.D.
University Dean for Academic Affairs


Cc: Mr. Stuart Axenfeld, Assistant Inspector General for Audit
    Julia Wrigley, Interim Associate University Provost, CUNY
      RFCUNY Response to the Agreed-Upon Procedural Review
              Prepared by Cotton & Company LLP

                                    April 30, 2009

In this document, we first state the findings and recommendations from the report
prepared by Cotton & Company and then give our responses.

Finding 1. RFCUNY drew more funds than it was due.

RFCUNY drew down excess fees of $43,732 on Award no. 04EDHNY003. RFCUNY
performed the draw down based on actual expenses recorded on its books instead of
the actual number of members enrolled in the AmeriCorps Program.

Recommendations:

We recommend that the Corporation:

1a. Require RFCUNY to strengthen procedures to ensure that it complies with
    AmeriCorps Fixed Amount Award requirements;

   RFCUNY's Response: RFCUNY believes that the draw down was reasonable given
   the circumstances of our program. Our recruitment and selection of Teaching
   Fellows entails a lengthy and time-consuming evaluation process to make sure that
   candidates have the character, commitment, and academic skills required to teach in
   high-needs schools. Prospective Teaching Fellows do not actually join AmeriCorps
   until after they have not only survived the initial selection process, but have
   successfully completed a seven-week summer pre-service program. They must also
   take and pass two New York State tests required of all teachers. This demanding
   regimen insures that only the most qualified applicants enter the schools. They are
   also the recruits who join AmeriCorps. By the time they join, however, RFCUNY has
   already. invested a great deal in their evaluation and training. Those who drop out
   along the way, or who fail to successfully complete the pre-service training, have still
   entailed substantial expenditure on RFCUNY's part. Thus, we believe that the
   structure of our program makes draw down bcfsed on expenses, as opposed to being
   based strictly on enrollment, a reasonable option.

1b. Verify implementation of strengthened draw down procedures; and

   RFCUNY's Response: We will await decision by CNCS before making any changes
   in the existing draw down procedure.

1c. Recover the excess fees drawn down.

   RFCUNY's Response: If CNCS decides against the RFCUNY draw down position,
   the funds in question for past grant years and for the current grant year will be
   returned.

   Corporation's Response:
   Accountants' Comments:

Finding 2. RFCUNY did not follow certain AmeriCorps Provisions.

RFCUNY did not follow AmeriCorps Provisions related to member timesheets,
orientation training, training limitations, and fundraising limitations, as follows:

Recommendations:

We recommend that the Corporation:

2a. Provide guidance to RFCUNY on proper timekeeping procedures to ensure that it
    complies with AmeriCorps requirements;

   RFCUNY's Response: RFCUNY has recognized the need to improve our time
   sheets and they have been amended. The amended time sheets include a space
   marked 'Date' where members must date their time sheets.

2b. Provide guidance to RFCUNY on procedures to ensure that its program conducts,
    maintains, and retains documentation to support member attendance at orientation;

   RFCUNY's Response: RFCUNY provided prospective members with extensive pre-
   service training over seven weeks to provide them with the skills, knowledge and
   supervision necessary to perform the service and teaching responsibilities they
   would assume in the fall. The members received specific training in their fields and
   learned about the demographics, culture, and community life of New York City.
   RFCUNY has documentation of prospective members' participation in this summer
   pre-service program. RFCUNY also gave each prospective member an orientation
   packet at the beginning of their service in the summer; among other materials, this
   packet contains a Handbook that provides answers to frequently asked questions
   about AmeriCorps Education Awards and AmeriCorps procedures.

   In the future we will also obtain signatures from all participants in a specific
   orientation to AmeriCorps.

2c. Require RFCUNY to implement procedures to track member training and fundraising
    to ensure members do not exceed the maximum percentage of hours allowed for
    those activities; and

   RFCUNY'S Response: Our members work full-time as teachers during the school
   year. They also take graduate classes in the evenings and participate in seven
   weeks of full-time pre-service training in the summer before they start teaching. They
   more than fulfill the 1,700 hours of service required to earn Education Awards.
   Members have no reason to include any time spent fundraising in their service hours.
   Given the demanding nature of their responsibilities, it would be almost impossible
   for any member to reach 170 hours of fundraising; this would correspond to roughly
   a month of fUll-time work. Even if a member were able to invest this many hours in
   fundraising, it would come on top of the required service hours; thus, such
   fund raising would not be a substitute for· service in other forms, but an addition.
   Given these factors, we do not think that excessive time spent fundraising is a
   problem in our program. We will, however, inform members starting with the


                                                                                       2
   amended time sheet in the next program year that they should not include
   fundraising in their service hours. Fundraising will be prohibited and the amended
   AmeriCorps member handbook and amended time sheets will reflect this. The
   amended timesheet reflects the prohibition on indirect service beyond 20% of service
   hours and this will also be emphasized in the AmeriCorps orientations.

2d. Verify RFCUNY's implementation of compliant timekeeping, orientation, training, and
    fundraising procedures.

   RFCUNY's Response: Our amended time sheets and AmeriCorps orientation sign-
   in lists will be available for CNCS review upon request.


Finding 3. The supervisory signature on members' timesheets was not the
members' supervisor, or that of someone with direct knowledge of hours served
by the members.

Recommendations:

We recommend that the Corporation:

3a. Provide guidance to RFCUNY on proper member timekeeping procedures to ensure
    that it complies with AmeriCorps requirements; and

   RFCUNY's Response: We acknowledge the need to improve aspects of our time
   sheet procedures. We are confident, however, that members' service hours are
   closely tracked by the institutions in which they work and study. Members work as
   full-time teachers in the New York City schools. The NYC Department of Education
   monitors teacher attendance through, its own timekeeping and tracking system.
   Supervision is provided by members' school principals. The colleges in which
   Teaching Fellows are doing graduate work also maintain their own attendance
   policies. Teaching Fellows are engaged in institutions that provide their own control
   systems and that have strong incentives to track service hours, as noted in
   RFCUNY's 2007 proposal.

  We also note that AmeriCorps accepted the designation of RFCUNY personnel
  located at Department of Education offices as official Site Supervisors. This was
  memorialized in a Site Agreement in 2006-07. The agreement states that one duty of
  Site Supervisors is to sign members' time sheets on a quarterly basis. Given that
  members' hours were being monitored by the institutions in which they worked and
  pursued their graduate degrees, Site Supervisors accepted the signatory
  responsibility with confidence.

  Further, AmeriCorps Provisions state that time sheets "must be signed and dated
  both by the member and by an individual with oversight responsibilities for the
  member." We see "oversight" as being different from "direct supervision." It would be
  extremely burdensome if signatures were required from multiple parties for each time
  sheet for direct and indirect service.

  Going' forward, we will seek relief from duplicative time keeping requirements by
  requesting that RFCUNY's program be granted permission to use an alternative


                                                                                      3
    professional timekeeping system, as provided in CNCS's 2007 policy document ASN
    07 -003. This document describes CNCS's adoption of a policy designed to provide
    Professional Corps programs with relief from administratively burdensome time
    keeping procedures in cases (such as RFCUNY's program) where their members
    exceed service hour requirements and also are subject to attendance monitoring and
    record keeping by the institutions in which they serve.

   We will also, however, improve our own time sheet procedures. We have already
   changed our time sheets to better conform with Corporation provisions. Specifically,
 ) we have inserted a space for dating the time sheets and we have removed the
   sample hours. In addition, we have strengthened our guidance regarding prohibited
   activities, time spent in indirect service, and in fundraising.

3b. Verify RFCUNY's implementation of the revised timekeeping procedures that ensure
    timesheets are signed by a supervisor having direct knowledge of the members'
    activities.

    RFCUNY's Response: Amended time sheets will be available upon request.

3c. Verify the existence of the members who did not respond to our repeated requests to
    interview them.

   RFCUNY's Response: We are confident that all members selected for interviews
   exist and are active as Teaching Fellows in the New York City schools. A search for
   members selected for interviews was conducted using members' Social Security
   numbers against the FellowTrack database (the Department of Education database
   that monitors the teaching status of each New York City Teaching Fellow). All those
   selected for interviews were accounted for as active in status. This status means
   that they are teaching. We note that Cotton & Company staff members first started
   trying to contact members in mid- to -late December, 2008. They might have
   encountered particular difficulty due to the distraction and increased demands of the
   holiday period.

   Corporation's Response:


   Accountants' Comments:


Finding 4.   Members did not always record actual service hours on their time
sheets.

Recommendations:

We recommend that the Corporation:

4a. Require RFCUNY to either remove the sample template time sheet or provide
    members with proper guidance concerning completing time sheets accurately.




                                                                                      4
    RFCUNY's Response: Going forward from the May 2009 time sheet, the sample of
    recorded hours has been removed. We also wi" communicate with our members to
    reinforce the need to complete time sheets carefully and accurately.

 4b. Verify RFCUNY's implementation of revised timesheet procedures to ensure
     that member timesheets contain actual hours served.

    RFCUNY's Response: The revised time sheets and orientation agenda wi" be made
    available to CNCS upon request.

    Corporation's Response:

    Accountants Comments:


Finding 5. Some members' timesheet hours were not accurately recorded in the
Corporation's Web-Based Reporting System.

Recommendations:

We recommend that the Corporation:

Sa. Ensure RFCUNY strengthens internal controls over time sheet review and
    reporting hours to the Corporation; and

    RFCUNY's Response: Beginning with the May, 2009 time sheets, office personnel
    of the NYC Teaching Fe"ows program will review a" time sheets entered into the
    Web-Based Reporting System. RFCUNY staff members will also conduct random
    tests of time sheets and hours recorded to validate entries into WBRS.

Sb. Verify implementation of time keeping procedures to strengthen internal
    controls to ensure that hours reported to the Corporation are accurate.

   RFCUNY's Response: CNCS may review the new time sheet procedures of the
   NYC Teaching Fe"ows Program as desired.

   Corporation's Response:

   Accountants' Comments:


Finding 6. RFCUNY did not require its members to timely submit their member
contracts, forms, and timesheets.

Recommendations:

We recommend that the Corporation:

6a. Provide guidance to RFCUNY on proper completion of member enrollment, exit, and
    change of status forms. Such training must be sufficient to ensure actions with
    regard to such forms be taken within 30 days;


                                                                                 5
    RFCUNY's Response: We will work with the Corporation on developing the
    appropriate training to ensure completion of member forms in a timely manner.

6b. Verify that member forms at RFCUNY are properly completed and submitted in
    accordance with grant requirements;

    RFCUNY's Response: We will improve our procedures to insure prompt and timely
    member submission of contracts, forms, and time sheets. We have informed
    members that the 30-day rule for submission of required documentation is non-
    negotiable and that any late materials may lead to forfeiture of their awards. This will
    also apply to Member Exit and End-of~term forms. Members will not be allowed to
    sign their contracts after the start of their service date.

6c. Require RFCUNY to strengthen its member contract procedures to ensure that
    member contracts are signed prior to the start of service; and

   RFCUNY's Response: The AmeriCorps calendar, previously part of our member
   handbook, has now been separated and distributed with the time sheets. In addition,
   the cover letters of our enrollment materials, time sheets, and exit materials stress
   the need to meet all deadlines. We will also emphasize this at our future AmeriCorps
   orientations.

6d. Verify that member contracts are signed prior to the start of service subsequent to
    RFCUNY implementing a revised program.

   RFCUNY's Response: The handbook is available upon request for verification
   purposes.

   Corporation's Response:

   Accountants' Comments:


Finding 7. RFCUNY used preprinted member documentation and did not ensure
that all member documentation was completed, signed, and dated.

Recommendations:

We recommend that the Corporation:

7a. Require RFCUNY to discontinue the use of preprinted signatures and service hours
    on AmeriCorps documentation, including Exit Forms;

   RFCUNY's Response: Beginning with our mid-year Teaching Fellows cohort, we
   have discontinued the use of preprinted signatures and service hours on AmeriCorps
   documentation, including Exit Forms.

7b. Require RFCUNY to strengthen eligibility procedures; and




                                                                                          6
   RFCUNY's Response: We are confident that all Teaching Fellows meet the high
   school education requirement for eligibility because the Teaching Fellows program
   and the New York State Department of Education require that every Teaching Fellow
   have a Bachelor's degree prior to entry into the program. Applicants for the Teaching
   Fellows Program must submit undergraduate transcripts as part of the application
   process. However, in order to better address the high school completion self-
   certification requirement, at the orientation for prospective members we will
   emphasize the necessity of completing this part of the application form or risk being
   ineligible for an award.

7c. Verify that the use of preprinted signatures and service hours has been
    discontinued on Exit Forms and that eligibility procedures are strengthened.

   RFCUNY's Response: As indicated in our response to finding 7a, we have'
   discontinued the use of pre-printed signatures and service hours on AmeriCorps
   documentation, including Exit forms.

   Corporation's Comments:

   Accountants' Comments:


Finding 8. RFCUNY did not maintain documentation to demonstrate that each
member's evaluation complied with AmeriCorps Regulations and the
Member Agreement.

Recommendations:

We recommend that the Corporation:

8a. Require RFCUNY to revise its member evaluation procedures in order to comply
    with the Regulations and member agreement;

   RFCUNY's Response: We will insure that we receive verification of the Teaching
   Fellows' direct service evaluations from the New York City Department of Education
   and the New York City Teaching Fellows program managers. We will also receive
   verification of indirect service evaluation from the New York City Teaching Fellows
   Coordinators at each participating Institution of Higher Education. These evaluations
   will be placed in member files and appropriate action will be taken if any members
   receive unsatisfactory evaluations.

8b. Verify the revision of RFCUNY's procedures for member evaluations.

   RFCUNY's Response: The Corporation may verify these new procedures as
   desired. Current member files are available at the AmeriCorps office at the New York
   City Department of Education, 65 Court Street, Brooklyn.

   Corporation's Response:

   Accountants' Comments:



                                                                                      7
Finding 9. RFCUNY did not maintain documentation to demonstrate that members
received criminal background checks, and that any background checks
conducted complied with AmeriCorps Provisions.

Recommendations:

We recommend that the Corporation:

9a. Determine if RFCUNY's current background check process is acceptable, and if not,
    provide guidance on procedures that ensure RFCUNY's programs conduct, maintain,
    and retain documentation to support member background checks are in compliance
    with AmeriCorps Provisions; and

   RFCUNY's Response: On April 29, 2009 RFCUNY received a letter from the
   Corporation stating that the New York City Department of Education's background
   check, although thorough, did not meet the Corporation requirement that a name-
   based check be conducted to search the NSOPR database for registered sex
   offenders.

   RFCUNY is disappointed that the Corporation has reached this decision. It is true
   that the New York City Department of Education's criminal backgroun.d check is not
   name based, instead involving a fingerprint search. However, the New York City
   Department of Education (DOE) requires rigorous and comprehensive criminal
   background checks of all teachers before they are allowed to begin their service as
   teachers. In the DOE procedure, the fingerprints of all candidates are searched
   against the FBI's Integrated Automated Fingerprint Identification System (IAFIS)
   database. According to a January 30, 2009 letter we received from the Corporation
   for National and Community Service's Office of Grants Management, the DOE
   criminal history search meets the regulatory standard required for AmeriCorps
   members.

   We further note that we have determined that the National Sex Offender Public
   Registry populates registration information into the National Crime Information
   Center's Sexual Offender Registry File, which in turn notifies the IAFIS of any
   matches. As described above, the DOE background check involves a search against
   this FBI IAFIS database. The weight of evidence regarding the thoroughness of
   these checks was the basis for our request to the CNCS to waive the required name-
   based check of the National Sex Offender Public Registry. CUNY Counsel has
   advised us that the DOE procedure both meets and exceeds the CNCS name-based
   check.

  We. accept the Corporation decision on this issue, but from our perspective a
  fingerprint search involves a higher level of certainty than a name-based one; names
  are not unique identifiers, in contrast to fingerprints. The web site that we are
  directed to use, the National Sex Offender Public Registry site, makes this point
  clearly. A disclaimer on its web site states that: no guarantee can be offered that the
  records obtained relate to the person about whom information is sought. It continues,
  "Searches based on names, dates of birth and other alphanumeric identifiers are not
  always accurate. The only way to positively link someone to a criminal record is
  through fingerprint verification."


                                                                                       8
9b. Verify implementation of the background check procedures.

   RFCUNY"S Response: We await a decision on the background check process
   described in response to finding 9a from Douglas Godesky, Senior Grants Officer for
   Policy Administration, Office of Grants Management, Corporation for National &
   Community Service, as to whether the waiver will be granted.

9c. Disallow and, if already used, recover education awards and accrued interest awards
    made to members with questioned education awards. In addition, recover fixed grant
    fees for any member whose education award was disallowed for reasons of
    eligibility.

   RFCUNY's Response: According to the counsel of the New York City Department
   of Education Human Resources office, Teaching Fellows can only become employed
   if they have successfully completed the DOE criminal background check: Teaching
   Fellows only become eligible for AmeriCorps membership once the background
   check and other requirements of the pre-service summer program have been met.
   Anyone failing the background check would have been identified and removed
   during the pre-service summer program.

   Corporation's Response:


   Accountants' Comments:


Finding 10. RFCUNY entered incorrect member start dates in Corporation systems
and in member contracts.

Recommendations:

We recommend that the Corporation:

10a. Provide guidance to RFCUNY on proper member contract procedures to ensure
     that they comply with AmeriCorps requirements/

     RFCUNY Response: We will meet with appropriate staff from the Corporation for
     guidance on proper member contract procedures.

10b. Require RFCUNY to enter proper dates into WBRS.

    RFCUNY's Response: Each group of Teaching Fellows is identified by cohort
    and number. Groups that enter at the end of summer are given even numbers,
    and those that enter in mid-year are assigned odd numbers. For example, we
    identified the 2008-9 entering group as Cohort 16, and the mid-year entering group
    as Cohort 17. In the past, we have used different start dates as a way of
    identifying different cohorts on WBRS. Cohort identification assists with verification
    of member awards.




                                                                                        9
     We have ceased this practice beginning with Cohort 17, and the dates for that
     cohort were entered according to AmeriCorps practice.

10c. Verify implementation of proper member contract procedures and input of proper
     dates into WBRS.

     RFCUNY's Response: With the cessation of identification through dates, we are in
     the process of creating a new way of identifying cohorts on WBRS that will be in
     compliance with the regulations. We will seek advice from the Corporation on how
     to accomplish this using WBRS.

     Corporation's Response:


     Accountants' Comments:


Finding 11. Some members worked beyond their contract-end date.

Recommendations:

We recommend that the Corporation:

11 a. Require RFCUNY to amend member contracts to' ensure that members do not work
      beyond the specified end date;

     RFCUNY's Response: As noted during the January 28, 2009 exit conference, this
     issue was only found within the Fall 2006, part-time, service-learning program.
     The service-learning program operated during a five-month period from August 31,
     2006 until January 31, 2007. During the exit conference, the Cotton Group
     acknowledged that this issue was caused by a misprint - the specified end date
     was misprinted as "December 31,2006."

11 b. Determine if excess service hours are eligible, if not, disallow excess hours and, if
      already used, recover education awards to members who did not' serve the
      minimum required service hours; and

     RFCUNY's Response: The hours were not earned in excess, as the actual
     timeframe, as referenced above, was from August 31, 2006 until January 31, 2007.
     We ask that finding 11 be removed or revised.

11 c. Verify the amendment of the member contract.

     RFCUNY's Response: The Cotton Group acknowledged at the exit conference
     that this issue arose because of a misprinted date.


     Corporation's Response:

     Accountants' Comments:



                                                                                        10
               APPENDIX B

              CORPORATION’S
RESPONSE TO AGREED-UPON PROCEDURES REPORT
NATIdNAL&
COMMUNITY
SERVICE~


                                         r"
To:            Stuart Axenfeld, Inspector general for Audit

From:          ~
               - ~
               .
                      ~
                gareJ':~
              ...--
                       Js
                                    ~~ A
                               t..,.ap
                              ooerry,
                                               /..
                                            ~ft.~
                                                 Grants Management

Date:          MaY ( 1Q99

Subj:          Response to OIG Draft of Agreed-Upon Procedures of Grant Awards to
               the Research Foundation of the City University ofNew York Dated April
               2,2009


Thank you for the opportunity to review the Office of the Inspector General draft report
of the Corporation's grant awards to the Research Foundation of the City University of
New York. The Office of Grants Management is not responding to the findings at this
time. Given the nature of the report's findings and the limited timeframe for response to
the draft, we have not had sufficient time to work with the university to develop a
corrective action plan and address the findings. We will respond to all audit findings and
recommendations in our management decision after you issue the report as final.


cc:     William Anderson, Acting Chief Financial Officer
        Frank Trinity, General Counsel
        Kristin McSwain, Director of AmeriCorps
        Rocco Gaudio, Deputy CFO for Grants and FFMC
        Lois Nembhard, Deputy Director, AmeriCorps National
        Sherry Blue, Audit Resolution Coordinator




                                             1
